~   May, 20, ?009 10:35AM                                                                      No, 1714    p, 1


~
                          NA'HONAL RA1LROAD l'ASSENGER CORPORATION
                               OFFICE OF THE INSPECTOR GENERAL
                                   OFFICE OF INVESTIGATIONS
                                    INVESTIGATlVJJ: JmPORJ'

        TITLE:
        CASE NUMDER:        08-045
        DATE OF REPORT:
        REPORT PREPARED BY:
                            MAY 20, 2009
                                       SA_U
                                                               Atr
        Report ofIntervlew:
        Report of Documents:
        Other Activity (Describe):    (;,!!!.si,UJL.8.mlQX.t

       Allcgntlq)ll

                                         'iiiiiio.ffiiiilc.e of Investigations (01) received an allegation that
                                         •                     lias bccn taking a company vehicle hom~ WitllOut


       Findings:

       On Aprll 23, 2008, from 5:15am to 6:30am, 01 observed all Amtrak marked vehicle with
       Govenul1cnt    1/           and Amtrak number            pal'ked III frOllt of       's home
       address                     At approximately 6:55am, 01 obselved a white male wearing glasses
                         Qn~'ll1g the nbove mentioned vehicle, The drivel' appeared to bc • • •

       011 April 23, 2008, OI obtained information from tlle automotive dep~rh\1eJlt ill reference to Amtrak
       vehicle number            , The information revealed that the vehicle is assigned to the Engincering
       Department, located in the                Ynrd, IIllder Responsible center_ The responsible
       perSOll was listed as                       .'
      OJ reviewed            's time and attendance records for April 22, 2008, April 23, 2008 and April
      24,2008, This data revealed that             worked oight (8) hours straight time 011 April 22, 2008,
      worked eight (8) and one hnlfhours straight time Wid eight (8) hours overtime on April 23, 2008,IlJld
      worked eight (8) and one half hours straight time and eight (8) homs overtime on April 24, 2008,

      On Octoher7, 2008, 01 received the altemate garaging authority IistfrOlll tllC automotive department
      for the recorded period from MIIY 2007, to MllY 2008, A revicw of this document revealed that
      • • • • was Ilot listed as havJtlg altomate garaging authority,

      _admitted to OJ that he did take his company assigned vehicle home on occasioll and that
      he knew he did IlOt have pOlmJssloll/autllorizatiotl to do so,
May. 20. 2009 10:35AM                                                                  No. 1714      P. 2




    or                           superiors-nil of whom said they never gave him permission to take II
    company vehicle home.

    Comments:



    On A})dl 20, 2009, OI received      _'s
    On April 9, 2009, 01 sent the Manngemellll'eferral

                                                  response (See Exhibit 111). As of result of OI'~
    recommendations, Engineering will brhlg fonnal charges against · Mr.                    and assess
    approp1'iale discipline and has issued letter of instruction 09-02 to all engineering employees to
    review Amtrak's hJghway vehicle utilization and control policy.

   On May 19,2009, I received the signed vohllltmy wnivel' form for the case against               from
   charging Officer                 (See Exhibit 112).             ndmitted his guilt in the case and
   uccepted the discipline of a ten (10) calendru' day suspension. Five (5) days suspension will be
   served immediately and five (5) days sllspension will be held in abeyallce for ono (1) year from the
   date that lIe signed the waiver.

   Recommondation:.

    It is reconIDlencled that lhis case be closed pending tho devolopment of further infonnation.


   Suporvisor's Signature:_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

                                                  ?"""---~"
                                         d
   Regional Supervisor's Siglluture:'_--t4":":-~'2:Z.;.L-;;-:-----'---t-r-------
                                                                          "'-~'ft.l?:.:;.':IJt,.1,--_____
   Depll\y Inspector General/Counsol's Signa J,:. ___u,=-_Af-L__(},"''t.}r'"
                                              -                       ~l           I
